APPENDIX

Ninth Circuit published opinion affirming denial of motion to suppress ................... 1
Ninth Circuit unpublished memorandum addressing suppression issues ............... 13
District court order denying motion to suppress ........................................................ 18

APPENDIX

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 1 of 12

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 19-10075
D.C. No.
4:18-cr-00133-PJH-1

v.
SHANE MAURITZ
VANDERGROEN,
Defendant-Appellant.

OPINION

Appeal from the United States District Court
for the Northern District of California
Phyllis J. Hamilton, Chief District Judge, Presiding
Argued and Submitted May 13, 2020
San Francisco, California
Filed July 7, 2020
Before: Michelle T. Friedland and Mark J. Bennett, Circuit
Judges, and Jed S. Rakoff, * District Judge.
Opinion by Judge Rakoff

*

The Honorable Jed S. Rakoff, Senior District Judge for the
Southern District of New York, sitting by designation.

SMV - 001

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 2 of 12

2

UNITED STATES V. VANDERGROEN
SUMMARY **

Criminal Law
The panel affirmed the district court’s denial of a motion
to suppress evidence found during a search that followed a
911 call and the stop of the defendant’s car, in a case in
which the defendant was convicted of being a felon in
possession of a firearm.
The panel held that the 911 call generated reasonable
suspicion justifying the stop, where the identified caller
using an emergency line was reliable, the reports by three
other persons conveyed by the caller contained sufficient
indicia of reliability, and the reported activity—possessing a
concealed weapon—was presumptively unlawful in
California and ongoing.
The panel addressed other issues in a concurrently filed
memorandum disposition.

COUNSEL
Jerome E. Matthews (argued) and Robin Packel, Assistant
Federal Public Defenders; Steven G. Kalar, Federal Public
Defender; Office of the Federal Public Defender, Oakland,
California; for Defendant-Appellant.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

SMV - 002

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 3 of 12

UNITED STATES V. VANDERGROEN

3

Alexis J. Loeb (argued), Assistant United States Attorney;
Merry Jean Chan, Chief, Appellate Section; David L.
Anderson, United States Attorney; United States Attorney’s
Office, San Francisco, California; for Plaintiff-Appellee.

OPINION
RAKOFF, District Judge:
Late on a Saturday evening, a worker at a bar in
California called 911 to report that three patrons had seen a
man in the area with a pistol on him. In response to this call,
the police stopped the man as he drove away, discovered a
pistol in his car, and placed him under arrest. The man,
defendant-appellant Shane Vandergroen, was subsequently
convicted of being a felon in possession of a firearm in
violation of 18 U.S.C. § 922(g)(1). Vandergroen now argues
that the 911 call should never have led to his stop in the first
place because it did not generate reasonable suspicion, and
that the evidence of the pistol should therefore have been
excluded. We disagree, and affirm the district court’s denial
of Vandergroen’s motion to suppress. 1
I. Factual Background
At about 11:27 p.m. on February 17, 2018, an individual
(“Witness 2”) who worked at a bar called Nica Lounge

1

In a concurrently filed memorandum disposition, we reject
Vandergroen’s alternative suppression arguments, as well as his
challenge to his conviction based on Rehaif v. United States, 139 S.Ct.
2191 (2019).

SMV - 003

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 4 of 12

4

UNITED STATES V. VANDERGROEN

(“Nica”) in Concord, California called 911 2 to report a man
with a gun seen on his person. Witness 2 gave his name,
identified his position at Nica, and indicated he was calling
from the bar. He explained that three of Nica’s customers
had told him they saw a man in the area with a pistol “on
him.” Witness 2 said the man (whom he could see) was in
the back parking lot and had just walked into a neighboring
bar. Witness 2 described the man as “Latin,” “wearing a blue
sweater with a Warriors . . . logo,” “skinny,” and in his early
20s, features that mostly matched Vandergroen’s. 3
Continuing in the call, Witness 2 next reported that the
man had walked out of the neighboring bar and was in the
parking lot next to Nica Lounge. The operator asked for
more details about the man, including whether the suspect
had been fighting. Witness 2 said the man had not. The
operator also asked Witness 2 where the gun was located on
the defendant, and the witness indicated that he would ask
the patrons who reported the gun to him. Before Witness 2
could provide more information, however, the man started
running through the parking lot by Nica. Witness 2 started
reporting the man’s movements, including that the man
jumped into a black four-door sedan. Witness 2 identified
the car as a “Crown Vic,” noted the man was driving out of
the parking lot, and told police officers arriving on the scene
2

The Government’s brief appears to assume that the call was
directly to police dispatch rather than to 911. Although the difference is
immaterial to our decision, the basis for the Government’s assumption is
unclear. Given that the district court characterized the call as a 911 call,
and the record does not indicate this finding was clearly erroneous, we
adopt this characterization. See United States v. Torres, 828 F.3d 1113,
1118 (9th Cir. 2016) (“We review the denial of a motion to suppress
evidence de novo, and any underlying factual findings for clear error.”).
3

Vandergroen is not, however, Latino.

SMV - 004

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 5 of 12

UNITED STATES V. VANDERGROEN

5

which car to follow. At the end of the call (“the 911 call”),
Witness 2 provided his full name and phone number.
In response to the 911 call, dispatch alerted officers that
“patrons think they saw a HMA [Hispanic Male Adult]
blu[e] warriors logo carrying a pistol.” Dispatch directed
officers to “1907 Salvio[,] Nica Lounge,” and stated,
3 patrons think they saw an HMA with a blue
sweatshirt on carrying a pistol. We’re getting
further. . . . HMA wearing a blue sweatshirt
with a Warriors logo on it. . . currently IFO
Pizza Guys. . . . no 4-15 [i.e. no fight] prior to
patrons seeing the male with a pistol.
3 females say they saw it on him. We’re still
getting further. . . . Subject is running 4
toward DV8 Tattoos and just got into a black
vehicle. . . getting into a 4-door sedan, black
in color . . .
Shortly thereafter, an officer reported over the dispatch
“we’re gonna do a high-risk car stop.” The police then
executed a stop of the man, later identified as Vandergroen.
During this stop, the police conducted a search of
Vandergroen’s car and found a loaded semi-automatic
handgun under the center console to the right of the driver’s
seat. An officer then placed Vandergroen under arrest.
Vandergroen was subsequently charged in a single-count
indictment with being a felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g)(1). Before trial,
Vandergroen filed a motion to suppress evidence found in
4

Vandergroen started running before the police arrived on the scene,
and there is no indication that he did so in response to the police.

SMV - 005

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 6 of 12

6

UNITED STATES V. VANDERGROEN

the course of his arrest, arguing, inter alia, that the 911 call
did not generate reasonable suspicion justifying his initial
stop. The district court denied the motion. Vandergroen then
requested that the case be set for a stipulated-facts bench
trial, reserving the right to appeal the denial of the motion to
suppress. After accepting the parties’ factual stipulations, the
district court adjudged Vandergroen guilty. Vandergroen
filed a timely notice of appeal.
II. Standard of Review
We review the denial of a motion to suppress de novo,
and any underlying findings of fact for clear error. United
States v. Torres, 828 F.3d 1113, 1118 (9th Cir. 2016).
III.

Analysis

On appeal, Vandergroen argues that evidence discovered
in the course of his arrest should be suppressed because the
police did not have reasonable suspicion to stop him in the
first instance. Under the Fourth Amendment, an officer may
conduct a brief investigative stop only where she has “a
particularized and objective basis for suspecting the
particular person stopped of criminal activity,” commonly
referred to as “reasonable suspicion.” Navarette v.
California, 572 U.S. 393, 396–97 (2014) (citations omitted).
While a tip such as the 911 call may generate reasonable
suspicion, it can only do so when, under the “totality-of-thecircumstances,” it possesses two features. United States v.
Rowland, 464 F.3d 899, 907 (9th Cir. 2006) (citation
omitted). First, the tip must exhibit sufficient indicia of
reliability, and second, it must provide information on
potential illegal activity serious enough to justify a stop.
United States v. Edwards, 761 F.3d 977, 983 (9th Cir. 2014).
The 911 call here satisfied both requirements.

SMV - 006

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 7 of 12

UNITED STATES V. VANDERGROEN

7

A. Reliability
The Supreme Court and this circuit have identified a
number of factors that can demonstrate the reliability of a
tip, including whether the tipper is known, rather than
anonymous, Florida v. J.L., 529 U.S. 266, 270 (2000);
whether the tipper reveals the basis of his knowledge,
Rowland, 464 F.3d at 908; whether the tipper provides
detailed predictive information indicating insider
knowledge, id.; whether the caller uses a 911 number rather
than a non-emergency tip line, Foster v. City of Indio,
908 F.3d 1204, 1214 (9th Cir. 2018); and whether the tipster
relays fresh, eyewitness knowledge, rather than stale,
second-hand knowledge, United States v. Terry-Crespo,
356 F.3d 1170, 1176–77 (9th Cir. 2004). When evaluating
the reliability of a tip such as the 911 call here, in which a
caller reports information from a third party regarding
possible criminal activity, we consider the reliability of both
the caller himself and the third party whose tip he conveys.
See United States v. Brown, 925 F.3d 1150, 1153 (9th Cir.
2019) (considering both the fact that the caller was known
and that the third-party tipster was anonymous in evaluating
the reliability of such a tip).
The totality of the circumstances in this case
demonstrates that the 911 call was sufficiently reliable to
support reasonable suspicion. First, the statements by
Witness 2 himself were undoubtedly reliable. Witness 2
provided his name and employment position, making him a
known, and therefore more reliable, witness. See J.L.,
529 U.S. at 270 (noting that a known informant is more
reliable); see also Rowland, 464 F.3d at 907 (“[A] known
informant’s tip is thought to be more reliable . . . .”). Further,
Witness 2 “reveal[ed] the basis of [his] knowledge”—
explaining that multiple patrons told him that Vandergroen

SMV - 007

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 8 of 12

8

UNITED STATES V. VANDERGROEN

had a gun on him and offering to ask follow-up questions to
the patrons about the exact location of the gun—thereby
enhancing the tip’s reliability. Rowland, 464 F.3d at 908.
Finally, the fact that Witness 2 placed his call using an
emergency line, which allows calls to be recorded and
traced, increased his credibility. Foster, 908 F.3d at 1214.
Second, we conclude that, viewed collectively, the
statements by Nica’s patrons were also reliable. Although
the patrons remained anonymous during the call, 5 which
generally cuts against reliability, their statements
“exhibit[ed] ‘sufficient indicia of reliability’” to overcome
this shortcoming. J.L., 529 U.S. at 270 (quoting Alabama v.
White, 496 U.S. 325, 327 (1990)). The reports were based on
fresh, first-hand knowledge. The patrons reported personally
seeing the gun on Vandergroen shortly before they reported
it to Witness 2. “[P]olice may ascribe greater reliability to a
tip, even an anonymous one, where an informant was
reporting what he had observed moments ago, not stale or
second-hand information.” Terry-Crespo, 356 F.3d at 1177
(internal quotation marks and citation omitted).
Furthermore, the fact that the anonymous tipsters were
Nica’s patrons who were still at the bar when the 911 call
was being made “narrowed the likely class of informants,”
making their reports more reliable. Id. at 1174. Further still,
the fact that multiple individuals reported seeing a gun also
made the information more reliable. The existence of
multiple tipsters, though anonymous, mitigates the specter
of “an unknown, unaccountable informant . . . seeking to
5
That the FBI was later able to identify one of the witnesses for an
interview, does not alter this analysis. “The reasonableness of official
suspicion must be measured by what the officers knew before they
conducted their search,” not after. Florida v. J.L., 529 U.S. 266, 271
(2000).

SMV - 008

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 9 of 12

UNITED STATES V. VANDERGROEN

9

harass another [by] set[ting] in motion an intrusive,
embarrassing police search” by relaying false information.
J.L., 529 U.S. at 271–72. Taken together, these factors
rendered the information provided by the Nica’s patrons
through Witness 2 sufficiently reliable to support reasonable
suspicion.
United States v. Brown, 925 F.3d 1150 (9th Cir. 2019),
contrary to Vandergroen’s contention, does not suggest
otherwise. In Brown, we determined that a call made by an
identified witness at the behest of an anonymous witness
reporting a man with a gun did not support reasonable
suspicion because the tip was neither reliable nor indicative
of potentially illegal activity. As we explained, “[t]he tip
suffer[ed] from two key infirmities—an unknown,
anonymous tipster and the absence of any presumptively
unlawful activity.” Id. at 1153. Brown does not control in
this case because the 911 call here was both more reliable
than the tip in Brown and (as explained further below)
conveyed information about presumptively unlawful
conduct.
As to reliability, whereas the tip in Brown originated
from a single witness who made clear “that she did not want
to provide a firsthand report because she ‘[does not] like the
police,’” id. at 1152 (alteration in original), the 911 call here
conveyed information from three witnesses, and none of
them expressed reluctance to be held directly accountable for
their reports. Moreover, the caller who relayed the tip in
Brown did not personally see the suspect. Id. By contrast, the
Nica employee in this case was looking at Vandergroen
while making the 911 call, and was able to help the police
identify Vandergroen by describing his movements in realtime. This factor further bolstered the reliability of the tip.
Cf. Foster, 908 F.3d at 1214 (“One factor supporting the

SMV - 009

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 10 of 12

10

UNITED STATES V. VANDERGROEN

reliability of a tip is that the tipster claims eyewitness
knowledge, coupled with sufficient detail in his
description.”).
B. Potential Illegality of Reported Behavior
While the 911 call was thus reliable, it may only support
reasonable suspicion if it also “provide[d] information on
potential illegal activity.” Foster, 908 F.3d at 1214. In other
words, a tip must demonstrate that “criminal activity may be
afoot,” id. (quoting Terry v. Ohio, 392 U.S. 1, 30 (1968)),
and the “absence of any presumptively unlawful activity”
from a tip will render it inadequate to support reasonable
suspicion, Brown, 925 F.3d at 1153. Furthermore, any
potential criminal activity identified must be serious enough
to justify “immediate detention of a suspect.” United States
v. Grigg, 498 F.3d 1070, 1080–81 (9th Cir. 2007).
The 911 call gave the police reason to suspect
Vandergroen was carrying a concealed firearm, which is
presumptively a crime in California. See Cal. Penal Code
§ 25400. Witness 2 indicated that patrons had seen
Vandergroen with a gun “on him.” This language, conveyed
to the police by the dispatcher, would suggest to a reasonable
police officer that Vandergroen at least potentially had the
gun concealed on his body. We have recognized that because
California “makes it generally unlawful to carry a concealed
weapon without a permit . . . a reasonable officer could
conclude that there is a high probability that a person
identified in a 911 call as carrying a concealed handgun is
violating California’s gun laws.” Foster, 908 F.3d at 1215–
16. As such, the tip provided information on potentially
illegal activity. This was in contrast to the tip in Brown,
which did not describe conduct that was presumptively
illegal in Washington, where that case arose. See id.; cf.
Brown, 925 F.3d at 1153–54 (holding that a tip that a man in

SMV - 010

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 11 of 12

UNITED STATES V. VANDERGROEN

11

Washington was carrying a gun was not “reliable in its
assertion of illegality” because “[i]n Washington State, it is
presumptively lawful to carry a gun”).
Furthermore, the potentially illegal activity identified in
the 911 call was serious enough to justify the “immediate
detention of [the] suspect.” Grigg, 498 F.3d at 1080. In some
circumstances, a tip that a suspect has completed only a
misdemeanor may not support reasonable suspicion absent a
“likelihood for ‘ongoing or repeated danger,’ or
‘escalation.’” Johnson v. Bay Area Rapid Transit Dist.,
724 F.3d 1159, 1175 (9th Cir. 2013) (quoting Grigg,
498 F.3d at 1081) (holding that a stop for a reported
completed misdemeanor battery was not justified where the
suspect was “doing nothing but talking” when the officer
arrived). Vandergroen argues that his conduct was too minor
to justify a stop because it consisted at most of a completed
“wobbler,” that is a crime that is punishable as either a felony
or misdemeanor. Vandergroen fails to note, however, that
the police had reason to suspect he was committing an
ongoing crime when stopped in his car because the crime of
carrying a concealed weapon includes concealing the
weapon in a car. Cal. Penal Code § 25400(a)(1). The tip’s
indication that Vandergroen was engaging in this continuing
illegal activity means that there was an ongoing danger and
the immediate detention of Vandergroen was warranted.
IV.

Conclusion

In short, the 911 call in this case was both reliable and
provided information on potentially criminal behavior.
Witness 2 was reliable as an identified caller using an
emergency line, and the Nica patrons’ reports he conveyed
contained sufficient indicia of reliability to support
reasonable suspicion. Furthermore, the reported activity—
possessing a concealed weapon—was presumptively

SMV - 011

Case: 19-10075, 07/07/2020, ID: 11743787, DktEntry: 59-1, Page 12 of 12

12

UNITED STATES V. VANDERGROEN

unlawful in California and was ongoing at the time of the
stop. Thus, the 911 call generated reasonable suspicion
justifying the stop and the district court was correct to deny
Vandergroen’s motion to suppress the evidence obtained
during the stop.
AFFIRMED.

SMV - 012

Case: 19-10075, 07/07/2020, ID: 11743789, DktEntry: 60, Page 1 of 5

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 7 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

U.S. COURT OF APPEALS

No. 19-10075

Plaintiff - Appellee,

D.C. No. 4:18-cr-00133-PJH-1

v.

MEMORANDUM*

SHANE MAURITZ VANDERGROEN,
Defendant - Appellant.
Appeal from the United States District Court
for the Northern District of California
Phyllis J. Hamilton, Chief District Judge, Presiding
Argued and Submitted May 13, 2020
San Francisco, California
Before: FRIEDLAND and BENNETT, Circuit Judges, and RAKOFF,** District
Judge.
In a concurrently filed opinion in this case, we address Vandergroen’s
argument that the police lacked reasonable suspicion to stop him, and affirm the
district court’s denial of the motion to suppress with respect to that issue. We

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Jed S. Rakoff, Senior District Judge for the Southern
District of New York, sitting by designation.
1

SMV - 013

Case: 19-10075, 07/07/2020, ID: 11743789, DktEntry: 60, Page 2 of 5

address here Vandergroen’s other arguments supporting reversal of his conviction,
none of which are availing.
First, we reject Vandergroen’s argument that the police’s conduct when
stopping him rose to the level of an arrest.1 To determine whether a stop has
transformed into an arrest, we consider the totality of the circumstances, United
States v. Rousseau, 257 F.3d 925, 929 (9th Cir. 2001), including whether the police
employed “intrusive techniques,” and if so, the “reasonableness” of this conduct,
Washington v. Lambert, 98 F.3d 1181, 1188 (9th Cir. 1996). Although the police
used quite aggressive tactics over the course of their stop of Vandergroen, such
tactics were reasonable in light of the police’s reasonable suspicion that
Vandergroen was armed and Vandergroen’s lack of cooperation with commands.
Id. at 1189 & n.16 (noting that a combination of a suspect’s being armed and
uncooperative can “justify the use of aggressive police action without causing an
investigatory stop to turn into an arrest”). Thus, the police’s tactics here did not
transform the stop into an arrest.
Second, we conclude that the frisk of Vandergroen for weapons during the
stop was permissible. “[A] frisk of a person for weapons requires reasonable
suspicion that a suspect ‘is armed and presently dangerous to the officer or to

1

We thus do not reach the question of whether there was probable cause to arrest
Vandergroen.
2

SMV - 014

Case: 19-10075, 07/07/2020, ID: 11743789, DktEntry: 60, Page 3 of 5

others.’” Thomas v. Dillard, 818 F.3d 864, 876 (9th Cir. 2016) (quoting Terry v.
Ohio, 392 U.S. 1, 24 (1968)). Vandergroen argues that even if the police had
reasonable suspicion that he was “armed,” they did not have reasonable suspicion
that he was “presently dangerous.” We have held, however, that “reasonable
suspicion that [a suspect] was carrying a gun . . . is all that is required for a
protective search under Terry.” United States v. Orman, 486 F.3d 1170, 1176
(9th Cir. 2007). Thus, the search was warranted based on the 911 call providing
police with reasonable suspicion that Vandergroen was carrying a gun.
Third, we hold that the warrantless search of Vandergroen’s car was
permissible as a protective search under Michigan v. Long, 463 U.S. 1032 (1983).
Long provides that police may search limited portions of a vehicle for weapons in
the course of a Terry stop where they have a reasonable suspicion “that the suspect
is dangerous and the suspect may gain immediate control of weapons.” Id. at 1049.
This requirement is satisfied here. The police had reasonable suspicion that
Vandergroen could gain immediate control of a gun in his car because they
reasonably believed he had a gun somewhere in his possession and had not found
one upon a frisk of his person. Although Vandergroen was handcuffed and in the
back of a police car during the car search, he would have gained immediate access
to this weapon if the police had released him after finding no open warrants and no
weapon on his person. See id. at 1051-52 (holding that the immediacy prong is

3

SMV - 015

Case: 19-10075, 07/07/2020, ID: 11743789, DktEntry: 60, Page 4 of 5

satisfied for a suspect “effectively under [police] control” where, “if the suspect is
not placed under arrest, he will be permitted to reenter his automobile, and he will
then have access to any weapons inside”). Furthermore, the police reasonably
suspected that Vandergroen was dangerous based on his failure to cooperate and
his access to a gun.
Fourth and finally, we reject Vandergroen’s challenge to his conviction
based on Rehaif v. United States, 139 S. Ct. 2191 (2019). Rehaif clarified that an
individual must know of his felon status at the time he possessed a firearm in order
to be convicted of being a felon in possession under 18 U.S.C. § 922(g). Id. at
2194. Neither the indictment nor the trial judge’s recitation of the elements of
§ 922(g) in this case, both of which preceded Rehaif, included this knowledge of
status element. We review Vandegroen’s Rehaif-based sufficiency-of-the-evidence
claim, which was not raised below, for plain error. United States v. Johnson, No.
17-10252, 2020 WL 3458969, at *2 (9th Cir. June 25, 2020) (citing United States
v. Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019)). To succeed under this standard,
Vandergroen must show: (1) an error; (2) that was obvious; (3) that affected his
substantial rights; and (4) that seriously affected the fairness, integrity, or public
reputation of judicial proceedings. Id.
The district court’s failure to include the knowledge of status element
satisfies the first two prongs of plain error review. Benamor, 937 F.3d at 1188-89.

4

SMV - 016

Case: 19-10075, 07/07/2020, ID: 11743789, DktEntry: 60, Page 5 of 5

Even assuming this error affected Vandergroen’s substantial rights, however,
Vandergroen has failed to demonstrate prong four is met due to the “overwhelming
and uncontroverted . . . evidence” in the record as a whole that Vandergroen knew
of his status as a convicted felon. Johnson, 2020 WL 3458969, at *5. At the time
the police found the gun in Vandergroen’s car, he had already been convicted of
two felonies and sentenced to a prison term of over one year for each. Furthermore,
one of those convictions was for being a felon in possession. Taken together, this
evidence means Vandergroen cannot satisfy the fourth prong of plain error review.
See id. (“[U]ncontroverted evidence that a defendant was sentenced to more than a
year in prison . . . will ordinarily preclude a defendant from satisfying the fourth
prong of plain-error review.”); Benamor, 937 F.3d at 1189 (holding that a
defendant’s prior conviction for being a felon in possession of a firearm similarly
indicated that the fourth prong was not satisfied).
AFFIRMED.

5

SMV - 017

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 1 of 18

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

UNITED STATES OF AMERICA,
Plaintiff,

8

United States District Court
Northern District of California

ORDER DENYING MOTION TO
SUPPRESS

v.

9

Case No. 18-cr-00133-PJH-1

10

SHANE MAURITZ VANDERGROEN,

11

Defendant.

Re: Doc. No. 14

12
13
On August 15, 2018, the court held a hearing on the motion of defendant Shane

14
15

Mauritz Vandergroen to suppress all fruits of his seizure and arrest, including statements

16

made by defendant and evidence obtained during the course of his seizure and arrest.

17

Doc. no. 14. Having considered the relevant authority, the papers, the evidence in the

18

record and the argument of counsel, the court DENIES the motion to suppress.

19

I.

20

Background
Defendant was arrested by Concord Police Department (CPD) officers on

21

February 18, 2018. Defendant was pulled over in a vehicle stop by CPD officers who had

22

received a dispatch call of a male suspect with a pistol seen at the Nica Lounge in

23

downtown Concord. Police searched defendant’s car and found a 9mm semi-automatic

24

handgun loaded with 11 bullets. Police arrested defendant for carrying a concealed

25

weapon in a vehicle in violation of Cal. Penal Code § 25400(a)(1), possessing firearm

26

with prior violent offense conviction in violation of § 29900(a)(1), and carrying loaded

27

firearm on person/vehicle in a public place in violation of § 25850(a). Defendant is

28
SMV - 018

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 2 of 18

1

charged here with one count of being a felon in possession of a firearm and ammunition

2

in violation of 18 U.S.C. § 922(g)(1).

3

A.

4

Witness 2 called 911 at about 11:27 p.m. on February 17, 2018, to report that a

911 and Dispatch Calls

5

man with a gun in his waistband was seen around Nica Lounge. As reflected in the

6

recorded 911 call, which started at about 11:27 p.m., Witness 2 gave his name, identified

7

his position, indicated that he was calling from Nica Lounge, and reported a gentleman in

8

the back parking lot next to Pizza Guys who was seen with a gun on his person: “a

9

couple of customers said that he had a pistol on him, a gun on him. . . . 3 patrons coming

10

into the Lounge . . . 3 girls in the back said they saw the pistol on him. . . . he’s taking off

11

running right now . . .he’s in the parking lot behind the blue tattoo place [DV8]. . . he’s

12

jumping into a car right now. . . Black car. . . it’s a sedan. . . 4-door. . . The officers went

13

the wrong way. He’s still in the parking lot. . . Crown Vic. He’s turning right on Concord

14

Avenue. . . He’s going toward the police department.” Doc. no. 21-1 (Sanchez Decl.), Ex.

15

1 (filed under seal). Witness 2 stayed on the phone with Concord police dispatch until

16

CPD pulled over defendant. Witness 2 repeated his full name and gave his phone

17

number to dispatch before hanging up. Both Witness 2 and another eyewitness were

18

later interviewed by an FBI agent. Sanchez Decl., Ex. 2 (302 report of Witness 2

19

interview); doc. no. 15 (Matthews Decl.), Ex. B (302 report of Witness 1 interview).

20

The call history report shows that at about 11:28 p.m., dispatch alerted officers

21

that “patrons think they saw a HMA blu warriors logo carrying a PISTOL.” Doc. no. 21-2

22

(King Decl.), Ex. 2. The recorded dispatch call reflects the following communications:

23



The dispatch operator directed responding officers as follows: “1907 Salvio.

24

Nica Lounge. 3 patrons think they saw an HMA with a blue sweatshirt on

25

carrying a pistol. We’re getting further. . . . HMA wearing a blue sweatshirt

26

with a Warriors logo on it. . . currently IFO Pizza Guys. . . . no 4-15 prior to

27

patrons seeing the male with a pistol. 3 females say they saw it on him.

28

We’re still getting further. . . . Subject is running toward DV8 Tattoos and
2

SMV - 019

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 3 of 18

1

just got into a black vehicle. . . getting into a 4-door sedan, black in color

2

. . .” Doc. no. 21-2 (Plummer Decl.), Ex. 1 (radio dispatch recording).

3



Officer reports “we’re gonna do a high-risk car stop.” Id. at 3:33.

4



Officer reports “we will take the K-9.” Id. at 4:58.

5



Officer reports “we’re gonna pause until the dog gets up here. He’s having
. . . he’s not cooperating with the commands.” Id. at 5:30.

6
7

B.

8

At about 11:31 p.m., multiple CPD officers conducted a high-risk traffic stop of

United States District Court
Northern District of California

9

Vehicle Stop and Arrest

defendant’s black Ford Crown Victoria car. The parties have submitted several police

10

reports detailing defendant’s stop and arrest. Doc. nos. 15 and 21. The government has

11

also submitted declarations by several of the responding officers, which are summarized

12

below.

13
14

1.

Sergeant Kyle Colvin

At 11:28 p.m., Sgt. Colvin was informed by police dispatch that a Hispanic Adult

15

male suspect wearing a blue sweater with the Warriors logo was observed with a firearm

16

outside the Nica Lounge. Sgt. Colvin responded to the dispatch report and while he was

17

driving to the Nica Lounge location, Concord dispatch provided updates of the suspect’s

18

location. A civilian witness called out to him while he was driving near the Nica Lounge,

19

and alerted Sgt. Colvin to the suspect’s vehicle.

20

At about 11:31 p.m., Colvin conducted a high risk traffic stop. He believed that a

21

high-risk stop was necessary based on the nature of the call and the high possibility that

22

the man inside this car had a gun, giving him concern about the safety of the public and

23

officers.

24

As the first one on the scene, Colvin stopped his car, got out, and pointed his

25

weapon at defendant. Other officers arrived and pointed their weapon at defendant. The

26

police dog on scene was out of the patrol car but did not bite defendant. Defendant was

27

yelling at the officers and not obeying repeated commands.

28
3

SMV - 020

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 4 of 18

After several minutes passed with defendant not complying with police commands,

United States District Court
Northern District of California

1
2

Colvin told Officer Plummer to approach defendant and handcuff him, since Plummer

3

was on the left side which was the best vantage point to approach and handcuff

4

defendant. Under CPD protocol, officers handcuff suspects during high-risk traffic stops

5

because of the potential element of danger.

6

Based on information received by CPD dispatch that this suspect carried a firearm

7

on his person,1 and to make sure he could not access weapons inside the car, Colvin told

8

Officer King to search the car for the firearm. Based on Colvin’s training and experience,

9

when Ofc. Plummer’s pat-down search revealed that the gun was not on the suspect’s

10

person, as witnesses had reported seeing, Colvin believed that the gun was probably

11

inside the car. After the loaded firearm was discovered in the car by Ofc. King, Colvin

12

decided to place defendant under arrest and arranged for an officer to transport him to

13

the police station. Doc. no. 21-4 (Colvin Decl.) ¶¶ 4-11 and Ex. 1 (Colvin Rpt.).

14

2.

Officer Michael Plummer

Officer Plummer states that the CPD Lieutenant (watch commander) decided that

15
16

a high-risk stop was warranted in this case. Plummer notes that defendant was talking

17

back to officers, prolonging the vehicle stop. Plummer was asked to approach the

18

suspect and handcuff him. Plummer holstered his firearm and approached defendant on

19

foot; defendant was out of the car. Plummer handcuffed him, and defendant did not

20

physically resist when being handcuffed.
Officer Plummer patted down defendant and found no weapons on him. Plummer

21
22

handcuffed defendant sometime before 11:39 p.m., which is when Officer Alvarado

23
24
25
26
27
28

1

Officer Colvin states in his declaration, at ¶ 9, that dispatch informed the officers
that the suspect was seen brandishing a firearm. The dispatch recording dispels the
characterization that defendant was reportedly brandishing a gun, but the 911 call and
dispatch recording make clear that the responding officers were informed that defendant
was seen by several people with a gun “on him.” This information provided a sufficient
basis to suspect that defendant was either brandishing a weapon or carrying a concealed
weapon.
4
SMV - 021

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 5 of 18

1

requested a wants and warrants check on defendant. After handcuffing defendant and

2

finding no weapons on his person, Plummer walked him to the patrol car and sat him

3

down in the back of the car. Plummer drove him to the CPD station, about half a mile

4

from the vehicle stop. The call history shows that the request to tow the car was made at

5

11:47 p.m., indicating that the on-scene investigation was complete. Doc. no. 21-2

6

(Plummer Decl.) and Ex. 1 (CPD dispatch recording).

7
8

United States District Court
Northern District of California

9

3.

Officer Derrick King

Officer King responded to the dispatch report, which was first made at about 11:28
p.m., that a Hispanic Male Adult wearing a blue sweater with the Warriors logo on it was

10

observed carrying a firearm in his waistband outside the Nica Lounge. Dispatch provided

11

information that the suspect was observed getting into a black Crown Vic type of car

12

heading east on Galindo Street, and Ofc. King recalls that two cars matching that

13

description were seen leaving the area. At about 11:31 p.m., a traffic stop of one vehicle

14

was initiated by Sgt. Graham, and Ofc. King covered him, but they realized it was not the

15

correct car.

16

Sgt. Colvin located the suspect vehicle at about 11:31 p.m., and conducted a high

17

risk traffic stop, but the suspect was non-compliant and was not detained until about

18

11:37 p.m. Ofc. King arrived about 11:36 p.m., and at about 11:42 p.m., he located the

19

firearm in the vehicle; it was facing down in the center console with the barrel pointed

20

toward the rear of the car, and the safety was off. He took photos of the gun and the car.

21

He ran the serial number and found that the gun was not registered.

22

Officer Marcic contacted the witness and transported the witness to the scene.

23

The witness identified defendant as the suspicious person carrying the firearm. Ofc. King

24

interviewed defendant at CPD Jail. Doc. no. 21-3 (King Decl.) and Ex. 1 (King Rpt.).

25
26

4.

Officer Marcic

Officer Marcic contacted the witness who called 911 in front of the Nica Lounge

27

and took the witness’s statement. At about 11:40 p.m., Ofc. Marcic drove with the

28

witness to the defendant’s location and conducted an infield lineup with the infield
5

SMV - 022

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 6 of 18

1

admonishment that he was not required to make an identification. The witness

2

“immediately identified Vandergroen as the male subject seen with a handgun in his

3

waistband saying, ‘Yup. That’s the dude with the Warriors shirt.’” The witness signed a

4

citizen’s arrest for defendant, who was transported to CPD Jail for booking. Doc. no. 15,

5

Ex. A (Marcic Rpt.).

6

C.

7

Officer Plummer transported defendant to the CPD station and did not question

8

him during the transport. Plummer Decl. ¶ 6. At about 12:20 a.m., February 18, 2018,

9

Officer King interviewed defendant at the CPD station; the interview was video and audio

Post-Arrest Interview

10

recorded. Sanchez Decl., Ex. 3.

11

II.

12

Legal Standard
The United States Constitution protects “the right of the people to be secure in

13

their persons, houses, papers, and effects, against unreasonable searches and

14

seizures.” U.S. Const. amend. IV. Warrantless searches and seizures by law

15

enforcement are presumptively unreasonable. See Kyllo v. United States, 533 U.S. 27,

16

31 (2001). The government has the burden of showing by a preponderance of the

17

evidence that an exception to the Fourth Amendment warrant requirement exists. United

18

States v. Marshall, 488 F.2d 1169, 1186 (9th Cir. 1973).

19

III.

20
21
22

Discussion
A.

Whether Traffic Stop Lacked Reasonable Suspicion
1.

Reliability of Tip

Defendant challenges the traffic stop as lacking reasonable suspicion as required

23

by Terry v. Ohio, 392 U.S. 1 (1968). Applying the Terry standard to investigatory traffic

24

stops, “a police officer may conduct an investigatory traffic stop if the officer has

25

reasonable suspicion that a particular person has committed, is committing, or is about to

26

commit a crime.” United States v. Choudhry, 461 F.3d 1097, 1100 (9th Cir. 2006)

27

(citation and internal quotation marks omitted). Officers have reasonable suspicion when

28

“specific, articulable facts ... together with objective and reasonable inferences, form the
6

SMV - 023

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 7 of 18

1

basis for suspecting that the particular person detained is engaged in criminal activity.”

2

Id. (citation and internal quotation marks omitted). The reasonable suspicion analysis

3

takes into account the totality of the circumstances. A traffic violation alone is sufficient to

4

establish reasonable suspicion. Id. (citing Whren v. U.S., 517 U.S. 806, 810 (1996);

5

United States v. Willis, 431 F.3d 709, 714-17 (9th Cir. 2005)).

United States District Court
Northern District of California

6

The Supreme Court has held that reasonable suspicion does not exist where an

7

officer can articulate only “an ‘inchoate and unparticularized suspicion or “hunch” ’ of

8

criminal activity.” Illinois v. Wardlow, 528 U.S. 119, 123 (2000). Rather, reasonable

9

suspicion exists only when an officer is aware of specific, articulable facts which, when

10

considered with objective and reasonable inferences, form a basis for particularized

11

suspicion. United States v. Cortez, 449 U.S. 411, 418 (1981); United States v. Salinas,

12

940 F.2d 392, 394 (9th Cir. 1991). In turn, particularized suspicion means a reasonable

13

suspicion that the particular person being stopped has committed, or is about to commit,

14

a crime. Cortez, 449 U.S. at 418.

15

Defendant argues that the 911 call about secondhand reports of witnesses seeing

16

a man with a gun was not sufficiently reliable to support reasonable suspicion for an

17

investigatory traffic stop. He contends that Witness 2 did not tell dispatch that he

18

personally saw the gun on defendant, and that Witness 2 did not report the offense

19

contemporaneously, because the sighting of the weapon took place sometime before

20

Witness 2 called police.

21

Defendant also argues that reasonable suspicion could not be supported by

22

evidence that was discovered after defendant had been stopped: Witness 2 later told

23

police, after defendant was stopped, that he personally saw defendant lift up his shirt,

24

exposing a black handgun located in his front waistband to a group of people in the

25

parking lot. Doc. no. 15, Ex. 1 (Marcic Rpt.). Defendant also points out that Officers

26

Colvin and Plummer claim that the dispatcher told them that the suspect had a gun “in his

27

waistband,” but the dispatch recording indicates that Witness 2 did not describe where

28

the gun was located. Plummer Decl. ¶ 3; Colvin Decl. ¶ 4. The recording of the 911 call
7

SMV - 024

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 8 of 18

1

reflects that Witness 2 reported that the suspect was carrying a pistol and that patrons

2

had seen the gun on him, but when the dispatch operator asked Witness 2 where the gun

3

was seen on the suspect, Witness 2 did not respond to that question because he

4

suddenly saw the suspect start running.

United States District Court
Northern District of California

5

Defendant contends that Witness 2’s 911 call lacked predictive information or any

6

indication that it was reliable in its assertion of illegality, like the anonymous tip found

7

lacking sufficient indicia of reliability in Florida v. J.L., 529 U.S. 266, 271-72 (2000). The

8

Ninth Circuit has emphasized the need for tips to include predictions of future movements

9

in order to prove reliable. See, e.g., United States v. Luong, 470 F.3d 898, 903 (9th Cir.

10

2006) (where the court found the absence of probable cause to be so lacking from a

11

search warrant affidavit that officers could not justifiably rely on it in executing the warrant

12

because the tip from the DEA about a suspected drug chemist failed to provide any

13

predictive information); and United States v. Morales, 252 F.3d 1070, 1076 (9th Cir.

14

2001) (where the court overturned a warrantless stop based on a tip and required that an

15

anonymous tip “must predict the suspect's future movements”).

16

Defendant cites an unpublished Ninth Circuit opinion holding that a tip was

17

insufficient to support reasonable suspicion of criminal activity so as to justify a Terry

18

stop. United States v. Hollinquest, 444 Fed. Appx. 118, 119 (9th Cir. Jul. 19, 2011).

19

There, a hotel employee told the dispatcher that he had heard some people say that a

20

man had a gun and told dispatch that the man was wearing a blue shirt, was in the

21

parking lot, and had arrived there in a burgundy SUV. The tipster told police that the man

22

had just pulled up to the hotel and that he had not brandished or displayed a weapon.

23

The court held that this call was insufficient to establish reasonable suspicion of any past,

24

present, or future criminal activity. Hollinquest is not controlling authority, and is

25

distinguishable from this case in that the police in Hollinquest did not know that the

26

informant was still at the scene when they arrived, and the informant never came forward

27

personally and he was never interviewed. 444 Fed. Appx. at 120 n.1.

28
8

SMV - 025

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 9 of 18

United States District Court
Northern District of California

1

Here, the government has demonstrated that the 911 call by Witness 2 provided

2

specific, articulable facts to support reasonable suspicion. Defendant correctly points out

3

that Witness 2 did not tell the dispatcher that he personally saw the gun and that the

4

dispatch recording disproves the officers’ statements that they were informed by dispatch

5

that the firearm was seen in the suspect’s waistband. Plummer Decl. ¶ 3 and Colvin

6

Decl. ¶ 4. However, Witness 2 informed dispatch that three customers reported seeing

7

defendant with a gun on his person near the nightclub. These facts were sufficiently

8

specific and articulable to form a particularized suspicion that defendant was brandishing

9

a firearm or carrying a concealed weapon. See Opp. at 9; Marcic Rpt. Witness 2 was

10

also able to give a general description of defendant, his clothing and the car that he was

11

driving, as well as directing officers to the right car as defendant was driving away, to

12

support a reasonable suspicion that the suspect driving the car was the person that was

13

seen with a gun near a nightclub.

14

Another indication that the tip was reliable was that, unlike J.L., the source of the

15

911 call was not anonymous. Witness 2 identified both his name and position,

16

establishing the basis for how he would know that three different nightclub customers

17

reported seeing the suspect carrying a gun. Witness 2 also called out to responding

18

officers to point out defendant’s car, and provided real-time information to dispatch about

19

defendant’s location and movements. Under the totality of the circumstances, even

20

though Witness 2 did not tell dispatch that he also personally saw the gun on the suspect,

21

this real-time information was sufficiently reliable for police to find reasonable suspicion of

22

criminal activity to perform an investigative Terry stop. See United States v. Terry-

23

Crespo, 356 F.3d 1170, 1174 (9th Cir. 2004) (where the caller identified his name to the

24

911 operator, “the recorded and transcribed initial 911 call narrowed the likely class of

25

informants”). Even after the police engaged with defendant, Witness 2 repeated his

26

name and provided his call back number to follow up with police.

27
28
9

SMV - 026

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 10 of 18

1

United States District Court
Northern District of California

2

2.

Wobbler Offense

Defendant argues that the information provided to police only established

3

reasonable suspicion that he had committed a wobbler, not a completed felony as

4

required for a Terry stop. Reply at 5. Because the police stopped defendant for a past,

5

completed misdemeanor offense, he argues that the relatively minor nature of the offense

6

did not justify the warrantless stop, citing United States v. Grigg, 498 F.3d 1070, 1076

7

(9th Cir. 2007). In Grigg, police officers discovered an unregistered automatic firearm

8

while conducting an investigative stop to determine whether Grigg was involved in the

9

past noise violation alleged in a citizen’s complaint filed earlier in the day. The court held

10

that the traffic stop was not reasonable, but declined to adopt a per se standard that

11

police may not conduct a Terry stop to investigate a person in connection with a past

12

completed misdemeanor simply because of the formal classification of the offense. The

13

court articulated factors to consider when reviewing a Terry stop based on reasonable

14

suspicion that a past misdemeanor has been committed:

15
16
17
18
19
20
21

We adopt the rule that a reviewing court must consider the nature
of the misdemeanor offense in question, with particular attention to
the potential for ongoing or repeated danger (e.g., drunken and/or
reckless driving), and any risk of escalation (e.g., disorderly
conduct, assault, domestic violence). An assessment of the “public
safety” factor should be considered within the totality of the
circumstances, when balancing the privacy interests at stake
against the efficacy of a Terry stop, along with the possibility that
the police may have alternative means to identify the suspect or
achieve the investigative purpose of the stop.

22

Grigg, 498 F.3d at 1081. See also Johnson v. Bay Area Rapid Transit Dist., 724 F.3d

23

1159, 1175 (9th Cir. 2013) (holding that BART officer was not entitled to qualified

24

immunity for pulling a Taser on suspects in misdemeanor battery and ordering them to be

25

seated, where there was insufficient basis to conclude, from anything the officer

26

witnessed, that there was a likelihood for “ongoing or repeated danger,” or “escalation”).

27
28

The government acknowledges that brandishing a weapon is punishable as either
a felony or misdemeanor in violation of Penal Code § 417, as is carrying a concealed
10

SMV - 027

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 11 of 18

1

firearm in violation of Penal Code § 25400. The government demonstrates under the

2

Grigg test that the nature of carrying a concealed weapon or brandishing a firearm in

3

public place does pose danger to the public and the risk of escalation, given the risk that

4

the suspect could have pulled out his weapon on unsuspecting club patrons or against

5

officers who were responding to the 911 call. Although defendant correctly points out

6

that dispatch was told there was no report of a fight in public (Cal. Penal Code § 415) and

7

that the suspect was driving away from the parking lot, the police had reasonable

8

suspicion to do an investigative stop knowing that he was last seen with a gun and

9

continued to pose a danger to the public. The fact that defendant went into another club

10

for 10-15 minutes did not “substantially lessen” the probability that he still had the

11

weapon, as he suggests, given the unlikelihood that he would abandon his firearm in a

12

club and leave it there. Under the totality of the circumstances, the warrantless stop was

13

not unreasonable.

14

B.

15

Defendant contends that the police contact and aggressive tactics amounted to an

Whether Terry Stop Amounted to Arrest

16

arrest, not merely a Terry stop, and that the police lacked probable cause to arrest in

17

violation of the Fourth Amendment.

18

Defendant argues that the aggressive methods used by the police were unjustified

19

and that the traffic stop ripened into an arrest under the totality of the circumstances:

20

defendant was ordered out of his car at gunpoint, with a police dog present; he was

21

forced to lie face-down on the pavement; he was handcuffed; he was placed in the back

22

of a police car while handcuffed. Reply at 6-7. Defendant argues that a reasonable

23

person in these circumstances would not have felt free to leave, and that his detention

24

amounted to a warrantless arrest. Reply at 6-8 (citing Johnson v. Bay Area Rapid Transit

25

Dist., 724 F.3d 1159, 1176 (9th Cir. 2013)).

26

To determine whether a stop has turned into an arrest, a court must consider the

27

totality of the circumstances. United States v. Rousseau, 257 F.3d 925, 929 (9th Cir.

28

2001) (citing United States v. Del Vizo, 918 F.2d 821, 824 (9th Cir.1990)). In doing so, a
11

SMV - 028

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 12 of 18

1

court considers both the intrusiveness of the stop (the aggressiveness of the methods

2

used by police and the degree to which the suspect's liberty was restricted) and the

3

justification for using such tactics (whether the officer had sufficient basis to fear for his or

4

her safety warranting a more intrusive action). Id. (citing Washington v. Lambert, 98 F.3d

5

1181, 1185 (9th Cir. 1996); United States v. Robertson, 833 F.2d 777, 780 (9th Cir.

6

1987)). “In short, the court decides whether the police action constitutes a Terry stop or

7

an arrest by evaluating not only how intrusive the stop was, but also whether the methods

8

used were reasonable given the specific circumstances.” Id. (citations and internal marks

9

omitted). In Johnson, the Ninth Circuit articulated that under some circumstances, “it is

10

appropriate for an officer to use a level of force that would ordinarily bring to mind arrest”

11

such as the following:

12

(1) “where the suspect is uncooperative or takes action at the scene that

13

raises a reasonable possibility of danger or flight;”

14

(2) “where the police have information that the suspect is currently armed;”

15

(3) “where the stop closely follows a violent crime;” and

16

(4) “where the police have information that a crime that may involve

17

violence is about to occur.”

18

Johnson, 724 F.3d at 1176 (quoting Lambert, 98 F.3d at 1189).

19

The government argues that the aggressive tactics used by the officers in

20

detaining defendant were justified because they had reason to believe that he was armed

21

and that they needed to ensure their safety as they continued their investigation. Doc.

22

no. 28 (Surreply) at 6-7. Though the officers were not aware of defendant harming or

23

threatening anyone, they knew he was seen carrying a pistol by three club patrons near a

24

public place, and when the police approached him, he was argumentative and not

25

compliant with the officers’ commands, continuing to lower his hands and asking why he

26

was being taken out of the car. See Colvin Rpt.

27
28

Defendant argues that he did not present a significant degree of danger,
suggesting that certain indications presenting danger to police or others, such as harming
12

SMV - 029

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 13 of 18

1

or threatening others or physically resisting officers, are required to find that intrusive or

2

aggressive tactics were justified in a Terry stop. Reply at 9. Settled authority does not,

3

however, require significant danger to allow police officers to protect themselves, but only

4

reasonable suspicion warranting an investigative stop and reasonable steps to protect

5

their safety. Terry, 392 U.S. at 24 (“When an officer is justified in believing that the

6

individual whose suspicious behavior he is investigating at close range is armed and

7

presently dangerous to the officer or to others, it would appear to be clearly unreasonable

8

to deny the officer the power to take necessary measures to determine whether the

9

person is in fact carrying a weapon and to neutralize the threat of physical harm.”). The

10

Supreme Court has recognized “that the policeman making a reasonable investigatory

11

stop should not be denied the opportunity to protect himself from attack by a hostile

12

suspect.” United States v. Taylor, 716 F.2d 701, 708 (9th Cir. 1983) (quoting Adams v.

13

Williams, 407 U.S. 143, 146 (1972)). Under controlling Ninth Circuit authority, “[t]he use

14

of force does not convert the [investigatory] stop into an arrest if it occurs under

15

circumstances justifying fears of personal safety.” United States v. Alvarez, 899 F.2d

16

833, 838 (9th Cir. 1990) (citing United States v. Buffington, 815 F.2d 1292, 1300 (9th Cir.

17

1987) (investigatory stop did not amount to arrest where police officers forced suspects to

18

exit car and lie down on pavement at gunpoint after prior warning that suspects were

19

dangerous and a suspect disobeyed an order to raise his hands)). See also United

20

States v. Greene, 783 F.2d 1364, 1367 (9th Cir. 1986) (“The fact that the officers told the

21

men to put their hands on the car's headliner and then drew their weapons when

22

appellant failed to comply did not necessarily transform the stop into an arrest.”).

23

The government demonstrates that the officers’ tactics for stopping and

24

investigating defendant were reasonably based on concerns for personal safety, where a

25

reliable witness was on the phone with dispatch reporting that defendant was seen with a

26

gun by several people. The officers had this information that the suspect was armed

27

before pulling over his car, and then determined after stopping him that he was

28

uncooperative with verbal commands. Under these circumstances, approaching
13

SMV - 030

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 14 of 18

1

defendant with guns drawn was reasonable to neutralize the risk of physical harm and to

2

determine whether he was armed, until the officers could ensure that he was not carrying

3

a weapon or presenting danger to their safety.

4
5

their brief investigation, probable cause to arrest was not required.

6

C.

7

Defendant contends that the warrantless search of his person and his car violated

8
9
10

United States District Court
Northern District of California

Because the Terry stop did not ripen into an arrest before the police completed

Whether the Warrantless Searches Were Unreasonable

the Fourth Amendment.
1.

Basis for Pat-Down Frisk

Defendant argues that the police did not have any reliable information to justify a

11

Terry frisk or pat-search for weapons. Reply at 10-11 (citing Thomas v. Dillard, 818 F.3d

12

864, 876 (9th Cir. 2016) (“whereas a Terry stop is justified by reasonable suspicion that

13

criminal activity may be afoot, a frisk of a person for weapons requires reasonable

14

suspicion that a suspect “is armed and presently dangerous to the officer or to others.”),

15

as amended).

16

Here, the government has shown that the police had reasonable suspicion that

17

defendant was armed, based on the 911 call with a witness who identified himself and

18

reported that three people had seen defendant with a pistol on him and described the car

19

that defendant was driving, giving guidance about the car’s movements directly to an

20

officer and to dispatch. The nature of this call supported reasonable suspicion that the

21

suspect inside this car had a gun. Further, when defendant failed to comply initially with

22

police commands, the police had further concern for threat to their safety while

23

conducting their investigation.

24

2.

Automobile Search

25

Defendant also contends that the warrantless search of his car was not justified by

26

either the “automobile exception” or a protective search. The court determines that under

27

the circumstances presented here, the government has not demonstrated a fair

28

probability that evidence of a crime would be found inside the car to support the
14

SMV - 031

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 15 of 18

1

automobile exception to the warrant requirement. United States v. Pinela-Hernandez,

2

262 F.3d 974, 977-78 (9th Cir. 2001) (police may conduct a warrantless search of a

3

vehicle if they have probable cause to believe that it contains contraband).

United States District Court
Northern District of California

4

The government demonstrates, however, that the warrantless search was justified

5

by reasonable suspicion to conduct a protective search under the holding of Michigan v.

6

Long, 463 U.S. 1032 (1983). Opp. at 14-15. In Long, the Supreme Court held that “the

7

search of the passenger compartment of an automobile, limited to those areas in which a

8

weapon may be placed or hidden, is permissible if the police officer possesses a

9

reasonable belief based on ‘specific and articulable facts which, taken together with the

10

rational inferences from those facts, reasonably warrant’ the officers in believing that the

11

suspect is dangerous and the suspect may gain immediate control of weapons.” 463

12

U.S. at 1049. The Court in Long held that the officers who observed the defendant

13

driving his automobile at excessive speed, and swerving into a ditch on a rural road at

14

night, were clearly justified in searching the interior of the car after seeing a knife on the

15

floorboard, supporting a reasonable belief that Long posed a danger if he were permitted

16

to reenter his vehicle. The Supreme Court noted that in its earlier decision in Adams v.

17

Williams, 407 U.S. 143 (1972),

18
19
20
21
22

we held that the police, acting on an informant's tip, may reach into
the passenger compartment of an automobile to remove a gun from
a driver's waistband even where the gun was not apparent to police
from outside the car and the police knew of its existence only
because of the tip. Again, our decision rested in part on our view of
the danger presented to police officers in “traffic stop” and
automobile situations.

23

Long, 463 U.S. at 1048. In Gant, the Supreme Court summarized the holding of Long as

24

“permit[ting] an officer to search a vehicle's passenger compartment when he has

25

reasonable suspicion that an individual, whether or not the arrestee, is “dangerous” and

26

might access the vehicle to “gain immediate control of weapons.” Arizona v. Gant, 556

27

U.S. 332, 346-47 (2009) (citing Long, 463 U.S. 1032). Gant did not, however, address

28

vehicle searches incident to a Terry stop, which the government refers to as a “vehicle
15

SMV - 032

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 16 of 18

1

frisk,” where the suspect is detained pending investigation and is able to return to his car

2

after the brief detention in the absence of probable cause to arrest.

United States District Court
Northern District of California

3

At issue here is whether the police had a reasonable belief that defendant could

4

gain immediate control of weapons when he had been handcuffed and placed in a patrol

5

car during the search of the car. Defendant argues that he did not pose a danger to

6

police to justify a protective search under those circumstances, citing an unpublished

7

opinion holding that the protective search of a car was premature because there was no

8

immediate risk that the driver or passenger would gain control of the weapons in the car

9

where the officers had secured the suspects, handcuffed them, and placed them away

10

from the car. Reply at 13-14 (citing United States v. Perryman, 716 Fed. Appx. 594 (9th

11

Cir. Nov. 16, 2017)). The court in Perryman acknowledged that although the officers

12

“may have reasonably believed that Perryman and his cousin [Anthony] were dangerous,

13

the evidence does not support the district court’s conclusion that the officers reasonably

14

believed that Perryman or Anthony would gain immediate control of weapons in the car”

15

at the time the search was conducted. 716 Fed. Appx. at 595-96. The court in Perryman

16

explained that when the suspects were handcuffed and detained for tinted windows and

17

driving with a suspended license, there was no risk that either suspect would gain

18

immediate control of weapons in the car: neither suspect could have driven the car away

19

because they both had suspended driver’s licenses, and any other risk of danger was

20

speculative at that point because the police officers did not ask the suspects before

21

conducting the vehicle search if they would want to return to the vehicle and collect their

22

belongings. 716 Fed. Appx. at 596.

23

The Perryman decision is not binding and is distinguishable on the facts here,

24

where defendant did not have a suspended license and would have been able to re-enter

25

his car if the police concluded the investigatory stop after the pat-down search and

26

warrants check. Sgt. Colvin explained in his declaration, “If officers had not located a

27

firearm on Vandergroen’s person or vehicle, we would have allowed him to return to his

28

car, since he was not the subject of an outstanding arrest warrant. If we did not search
16

SMV - 033

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 17 of 18

1

the car before letting Vandergroen get back into it, he could have accessed the loaded

2

firearm and used it against us.” Colvin Decl. ¶ 10. This concern supports a reasonable

3

belief that defendant could gain immediate control of a weapon inside the car if he were

4

allowed to return to his car.

5

The parties cite no controlling authority on the question whether a protective

6

vehicle search under Long is supported by reasonable suspicion that an individual who is

7

handcuffed and held in a patrol car might gain immediate control of weapons inside the

8

car after the officers complete the investigatory stop. The Fourth Circuit, however, has

9

squarely addressed the issue whether reasonable suspicion to conduct a protective

10

vehicle search is satisfied by the possibility that a suspect who is briefly detained during

11

the traffic stop might gain immediate control of any weapons inside the vehicle when he

12

is allowed to return to his car. In United States v. Griffin, 589 F.3d 148 (4th Cir. 2009),

13

the court of appeals affirmed denial of the defendant’s motion to suppress the firearm that

14

was seized from his car during a Terry stop while the defendant was handcuffed and

15

placed in the backseat of a patrol car. Id. at 151. Finding that the officers had a

16

reasonable belief that the defendant might gain immediate control of any weapons inside

17

the vehicle, the court reasoned as follows:

18
19
20
21

Although Griffin was restrained in the backseat of the police vehicle
at the time of the search, he was being detained at that time solely
pursuant to the Terry stop. If Griffin had been released after the
brief detention, as he presumably would have been, he would have
regained access to his vehicle and any weapon inside.

22

Id. at 154 (citing United States v. Elston, 479 F.3d 314, 320 (4th Cir. 2007) (“Such a

23

protective search [under Long] is authorized even if the suspect is under police restraint

24

at the time the search is conducted, because the suspect may be able to escape such

25

restraint, or may later regain access to the vehicle if he is not arrested.”)).

26

Applying the persuasive reasoning of Griffin here, the government has shown that

27

the police officers had reasonable suspicion that defendant was dangerous and might

28

gain immediate control of a weapon inside the car after the brief detention pursuant to the
17

SMV - 034

United States District Court
Northern District of California

Case 4:18-cr-00133-PJH Document 30 Filed 08/24/18 Page 18 of 18

1

Terry stop: an identifiable witness reported that a person matching defendant’s

2

description, who drove off in a car that the witness described and pointed out to a

3

responding police officer, was seen by several people with a gun on him; no gun was

4

found on defendant during a pat-down search; based on the officers’ training and

5

experience, they believed that the gun was probably inside the car; the officers

6

reasonably suspected that if they allowed defendant to return to his car without searching

7

the car for the gun that he was seen carrying, he could gain immediate access to the

8

firearm inside the car. Under these circumstances, the police officers had reasonable

9

suspicion to conduct a protective search of defendant’s car. Haynie v. Cty. of Los

10

Angeles, 339 F.3d 1071, 1076 (9th Cir. 2003) (“Police officers may search for weapons in

11

the passenger compartment of an automobile if they have a reasonable suspicion based

12

on ‘specific and articulable facts’ that a suspect is dangerous or may immediately gain

13

control of weapons.”) (citing Long).

14

IV.

Conclusion

15

For the reasons set forth above, defendant’s motion to suppress is DENIED.

16

IT IS SO ORDERED.

17
18
19

Dated: August 24, 2018
__________________________________
PHYLLIS J. HAMILTON
United States District Judge

20
21
22
23
24
25
26
27
28
18

SMV - 035

